                     DEFICIT REDUCTION ACT OF 2005 REPORT TO CONGRESS
                                   FOR FISCAL YEAR 2007

                              DEPARTMENT OF HEALTH AND HUMAN SERVICES
                                    OFFICE OF INSPECTOR GENERAL


                                                            Table of Contents


Section                 Title                                                                    Page

      1                 Introduction                                                              1



      2                 Overview ofOIG                                                            1



      3                 Summary ofDRA Provisions That Affect OIG                                 4

      4                 OIG Oversight of               the Medicaid Program During FY 2007       6

      5                 Medicaid Oversight in FY 2008 and Beyond                                 20

      6                 Conclusion                                                               21




Appendix A .FY 2007 Medicaid Audit and Evaluation of                            Reports Issued


Appendix B Medicaid Work Planned for FY 2008

Appendix C Acronyms and Abbreviations




Deficit Reduction Act of 2005 Report to Congress for FY 2007
SECTION 1: INTRODUCTION

This report fulfills the Department of                      Health and Human Services (HHS), Office ofInspector
General's (OIG), statutory requirement to report on the use and effectiveness of                   funds provided
through section 6034 of                the Deficit Reduction Act of2005 (DRA), P.L. 109-171. Specifically,
this report summarizes OIG's Medicaid-related oversight activities during fiscal year (FY) 2007.
In addition, this report includes an overview of             Medicaid integrty work that OIG anticipates
undertaking during FY 2008.


SECTION 2: OVERVIEW OF OIG

Organization of OIG

The mission ofOIG, as mandated by P.L. 95-452 (as amended), is to protect the integrity of
HHS programs, as well as the health and welfare of    the beneficiaries of those program's. OIG
has a responsibility to report both to the Secretary and to Congress program and management
problems and recommendations to correct them. OIG accomplishes its statutory responsibilities
through audits; evaluations; investigations; legal services; and when appropriate, criminal and
civil enforcement actions, as well as administrative sanctions. OIG is organized into five
component offices to carr out these activities.

    · Offce of Audit Servžces (OAS). OAS conducts financial and performance audits
        of departmental programs, operations, grantees, and contractors following
         Government Auditing Standards issued by the Governent Accountability
         Offce (GAO). Financial audits principally provide reasonable assurance about
        whether financial statements are presented fairly in all material respects;
        performance audits assess the achievement of objectives and identify the
        presence of systemic weaknesses giving rise to waste, fraud, or abuse.
        Recommendations address problems, such as improper payments and inefficient
        and ineffective use of resources. OAS performs audits or oversees the audit
        work of others through a nationwide network of auditors, information
        technology  experts, and other professionals.

   · Offce of Evaluation and Inspections (OEI). OEI conducts national evaluations
       to provide HHS, Congress, and the public with timely, useful, and reliable
      information on significant issues. These evaluations, conducted by a nationwide
       staff of evaluators and other professionals, focus on preventing fraud, waste, or
       abuse and promoting economy, efficiency, and effectiveness of departmental
      programs. To promote impact, OEI reports also present practical
      recommendations for improving program operations.

   · Offce ofInvestžgations (01). 01 conducts and coordinates investigations of
       fraud and misconduct related to the Department's programs, operations, and
      beneficiaries. With investigators working in all 50 States, 01 leverages its

Deficit Reduction Act of2005 Report to Congress for FY 2007
         resources by actively coordinating with the Department of Justice (DOJ) and
         other law enforcement authorities. 01 identifies systemic weaknesses that leave
         Department programs vulnerable to fraud and recovers damages and penalties
         through civil and administrative proceedings.

     · Offce of     Counsel to the Inspector General (OCIG). OCIG provides general legal
          services to OIG, rendering advice and opinions on HHS programs and operations and
          providing all legal support for OIG's internal operations. OCIG represents OIG in all
          civil and administrative fraud and abuse cases involving HHS programs, including False
          Claims Act (FCA), program exclusion, and civil monetary penalty cases. In connection
          with these cases, OCIG also negotiates and monitors corporate integrity agreements.
          OCIG renders advisory opinions, issues compliance program guidance, publishes fraud
          alerts, and provides other guidance to the health care industry concerning the anti-
          kickback statute and other OIG enforcement authorities.

    · Offce of Management and Policy (OMP). OMP provides mission support services to the
        Inspector General (IG) and OIG components by formulating and executing the budget,
        issuing grants to State Medicaid Fraud Control Units (MFCU), developing administrative
        policies, disseminating OIG information in the form of  publications, and managing
        information technology and human resources. OMP also executes and maintains an
        internal quality assurance system, which includes quality control reviews of OMP
        processes and products, to ensure that OIG policies and procedures are followed
        effectively and function as intended.

OIG accomplishes its mission through a nationwide network of offces, including headquarters in
Washington, DC, and approximately 90 regional and field offces. In total, more than 80 percent
ofOIG resources are deployed to regional and field offices.

OIG staff at all locations work closely with the Department, its Operating and Staff  Divisions,
the DOJ and other agencies in the Executive Branch, Congress, and the States to bring about
systemic changes, successful prosecutions, negotiated settlements, and recovery of   funds.

OIG Budget

The funding that supports OIG's oversight activities is divided among a single discretionary
budget authority and multiple mandatory authorities. OIG's discretionary funding is used for
oversight of all HHS programs and offces except for Medicare, Medicaid, and the State
Children's Health Insurance Program (SCHIP), which are funded separately under the Health
Care Fraud and Abuse Control Program (HCF AC) and the Medicaid Integrity Program (MIP).
Following are summaries of     the two Acts that provide OIG with funding for oversight of health
care and, in particular, of the Medicaid program.

· Heath Care Fraud and Abuse Control Program. The Health Insurance Portability and
   Accountability Act of 1996 (HIP AA), P.L. i 04-191) established a Health Care Fraud and
    Abuse Control Program (HCF AC) under the joint direction of  the Attorney General and the
   Secretary ofHHS, acting through the HHS Inspector General (IG). The HIPAA appropriates

Deficit Reduction Act of 2005 Report to Congress for FY 2007                                        2
          monies from the Medicare Trust Fund in amounts that the Secretary of HHS and Attorney
          General jointly certify as necessary to finance antifraud activities, up to ceilings fixed by this
          legislation. Certain of       these funds are, by law, set aside for OIG "activities. . . with respect
          to Medicare and Medicaid."! The HIP AA also requires the Attorney General and the
          Secrerary of HHS to submit a joint annual report to Congress identifying expenditures and
          accomplishments under the law (Social Security Act § 1817(k)(5)). These reports are
          available on the Web sites of        both agencies at htto://oig.hhs.gov/reading/vublications.html
          and httv:l/www.usdo;.gov/dag/pubdoc.html. respectively. Since FY 1997, the HCFAC has
          been the primary source of funding for health care fraud investigations and prosecutions by
          both OIG and DOJ.

    · Medicaid Integrity Program. The DRA established the MIP through which OIG receives
       enhanced funding for fraud and abuse control "activities with respect to the Medicaid
          program" (42 U.S.C. § 1396(c)). This funding is to be provided annually from FY 2006
          though FY 2010 in addition to OIG's HCFAC resources and is available until expended.

    Table 1 presents a summary ofOIG's recent funding history and current estimates of                       its future
    funding commitment for Medicaid oversight.

                                     Table 1: Summary ofOIG's Financial Expenditures
                        Related to Medicaid for Health Care Oversight, FY 2005 - FY 2009
                                                              (Dollars in Thousands)




2005 '                      $160,000                                           $36,800             $36,800           23
2006                        $160,000                          $25,000          $44,800             $44,800           28
2007                        $165,920                          $25,000          $24,643   $24,858   $49,501           26
2008                        $169,238                          $25,000          $30,544   $28,283   $57,827           30
2009                        $174,998                          $25,000          $27,578   $27,578   $55,156           27

    As illustrated in Table 1, a sizeable portion ofOIG's HCFAC funds has been used for Medicaid
    oversight in recent years. As OIG continues spending its MIP funding in FYs 2008 and 2009, it
    can enhance the depth and scope of its Medicaid integrty work.

    1 The Social Security Act, § i 8 i 7(k)(3)(A).
    2 FY s 2008 and 2009 are estimated as percentages of the combined HIP AAHCF AC and DRAMIP funding
    streams.
    3 OIG began FY 2007 with $25 million of
                                             unspent MIP funds that were appropriated during FY 2006. These funds
    are being used to fund OIG's continued Medicaid oversight from FY 2007 through FY 2010.


   Deficit Reduction Act of 2005 Report to Congress for FY 2007                                                           3
Because there is an overlap among the activities funded by the HCF AC and MIP sources, OIG
work activities relating to Medicaid may draw on funding from both sources. For investigations
and subsequent prosecutions, it is particularly difficult-sometimes impossible-to accurately
segregate HCFAC- and MIP-funded Medicaid enforcement activities. For example, even ifOIG
conducts a given investigation exclusively with MIP funds, the subsequent prosecution of    that
case could draw upon DOl's own HCFAC money, and the matter would be reportable in both
the annual HCF AC and DRA reports. An overlap could also occur when an investigation
involves fraud in both Medicaid and other Federal health care programs, such as Medicare, as is
often the case. For these reasons, this report does not artificially divide accomplishments
between the two funding sources; OIG's successes are typically the result ofthe combined
funding from both resources.

In addition, much ofOIG's audit, evaluation, and investigation work requires more than 1 year to
yield results. As a consequence, many of the accomplishments summarized in this report reflect
the results ofOIG work performed over several years that culminated in FY 2007.


SECTION 3: SUMMARY OF DRA PROVISIONS THAT AFFECT OIG

Sections 6001, 6031, and 6034 of   the DRA include provisions that require OIG to conduct
mandatory activities, as well as annual reporting on overall Medicaid activities. These sections
are summarized below.

. Section 6001: Federal Upper Payment Limitfor Multiple Source Drugs and Other Drug
     Payment Provisions. This section requires OIG to, by no later than June 1, 2006, (1) review
     the requirements for, and manner in which, average manufacturer prices (AMP) are
     determined under section 1927 of the Social Security Act and (2) submit to the Secretary of
     HHS and Congress recommendations for changes in such requirements or manner as the IG
     determines to be appropriate.

     On May 30, 2006, OIG issued a report entitled "Determining Average Manufacturer Prices
     for Prescription Drugs Under the Deficit Reduction Act of2005" (A-06-06-00063), which
     fulfilled this statutory requirement. In this report, OIG found that some AMP requirements
     were unclear and that manufacturers' methods of calculating AMPs were inconsistent. OIG
     recommended that the Secretary direct the Centers for Medicare and Medicaid Services
     (CMS), in promulgating the AMP regulation, to clarify requirements in regard to the
     definition of retail class of trade and the treatment of pharmacy benefit manager rebates and
     Medicaid sales, and to consider addressing issues raised by industry groups. OIG also
     recommended that the Secretary direct CMS to issue guidance that specifically addresses the
     implementation of             the AMP-related reimbursement provisions of the DRA and to encourage
     States to analyze the relationship between AMP and pharmacy acquisition          cost before using
     AMP for their reimbursement methodology. During FY 2007, OIG continued to address
     topics related to the Federal upper payment limit for multiple source drugs and other drug
     payment provisions by issuing an evaluation report in June 2007 entitled "Deficit Reduction
     Act of2005: Impact on the Medicaid Federal Upper Limit Program" (OEI-03-06-00400).


Deficit Reduction Act of 2005 Report to Congress for FY 2007                                          4
· Section 6031: Encouraging the Enactment o.lState False Claims Acts (Fc""). Effective
    January 1, 2007, this section provides a financial incentive for States to enact FCAs that
    establish liability to the State for the submission of         false or fraudulent claims to the State's
    Medicaid program. Ifa State's FCA is determined to meet certain enumerated requirements,
    the Federal share of             Medicaid recoveries under the State FCA wil be reduced by
    10 percentage points.

    Specifically, for a State to be eligible for the 1 O-percentage point increase in its share of false
    claims recoveries, the State law relating to false and fraudulent claims must be determined by
    OIG, in consultation with the Attorney General, to meet the following criteria: (1) establish
    liability to the State for false or fraudulent claims described in the FCA with respect to
    Medicaid expenditures, (2) contain provisions that are at least as effective in rewarding and
    facilitating qui tam actions as those in the FCA, (3) contain a requirement for filing an action
    under seal for 60 days with review by the State Attorney General, and (4) contain a civil
    penalty that is not less than the amount authorized by the FCA.

    On August 21,2006, OIG published in the Federal Register (71 FR 48552) its guidelines for
    evaluating State FCAs under the requirements of                   section 6031 of    the DRA. This notice was
    developed in consultation with DOl's Civil Division. In the notice, OIG invited the States to
    request review of            their FCAs. Since the publication of          the Federal Register notice, OIG has
    received requests from 20 States to review both existing and proposed State laws.

    As of    February 2008, OIG had provided written responses to 13 States and approved 8 of                         the
    State laws-those passed by Massachusetts, Ilinois, Tennessee, Virginia, Hawaii, Texas,
    Nevada, and New York-for the DRA incentive. OIG made these determinations in
    consultation with DOl's Civil Division. The response letters are published on OIG's Web
    site at http://www.oig.hhs.gov.

. Section 6034: Medicaid Integrity Program. This section establishes the MIP and requires
    the Secretary to enhance the capacity of CMS to conduct oversight of Medicaid expenditures.
    The program's activities include: review of the actions of individuals or entities furnishing
    items or services for which a Medicaid payment may be made, audit of claims for payment
    for items or services furnished or for administrative services rendered, and education of
    service providers, managed care entities, beneficiaries, and other individuals with respect to
    payment integrty and quality of care. The section further establishes that, from FY 2006
    through FY 2010, $25 million shall be appropriated to OIG for the Medicaid activities of
    OIG in addition to any other amounts appropriated or made available for Medicaid oversight.
    Such funds shall remain available until expended. This section of                           the DRA also requires
    OIG to submit to Congress a report that identifies the use and effectiveness of                        the use of such
    funds no later than 180 days after the end of each fiscal year.




Deficit Reduction Act of2005 Report to Congress for FY 2007                                                              5
SECTION 4: OIG OVERSIGHT OF THE MEDICAID PROGRAM DURING FY 2007

This section of the report includes information on the Medicaid oversight activities conducted by
OIG during FY 2007. Many ofthe Medicaid enforcement actions and collections cited in this
report wil also be included in the total figures set forth in OIG's annual MFCU report, as well as
the OIG Semiannual and the joint OIG-DOJ annual HCF AC reports. These documents are
available on OIG's Web site at http://www.oig.hhs.gov/publications.htmL.

Audit and Evaluation Reports

During FY 2007, OIG issued 48 audits and 14 evaluations that were related specifically to
Medicaid. Table 2 provides a summary of the health care sectors that these audits and
evaluations addressed.




                                     Table 2: OIG's Medicaid Audit and Evaluation
                                                        Reports Issued in FY 2007




                      Medicaid Administration                                                       18
                      Medicaid Services (i.e., not otherwise listed)                                11
                      Medicaid Information Systems Controls                                          8
                      Medicaid Long-Term and Community Care                                          6
                      Medicaid Hospitals                                                             6
                      Medicaid/SCHIP                                                                 5
                      Medicaid Prescription Drugs                                                    5
                      Medicaid Hurrcane Response                                                     2
                      Medicaid Mental Health Services                                                1

                      Total                                                                         62

As a result of                               the Medicaid program in FY 2007, OIG questioned
                      these audits and evaluations of

$460 million in costs and identified $630 milion in funds that could be put to better use.
Furthermore, management action on OIG recommendations resulted in audit disallowances of
$1.2 billon.


A list ofOIG's audit and evaluation reports issued in FY 2007 is contained in Appendix A of                             this
document. The complete text of all reports, excluding the Medicaid Information Systems
controls reports, which are considered sensitive, can be accessed through the "Reports" section
ofOIG's Web site at http://www.oig.hhs.gov/reports. Below are highlights of                              the findings
contained in several of these Medicaid reports.

. Medicaid Eligibilty. OIG determined that from January 1 through June 30, 2005, two States
      (New York and California) made Medicaid payments on behalf of                           beneficiaries who did not

Deficit Reduction Act of 2005 Report to Congress for FY 2007                                                              6
    meet Federal or State eligibility requirements or did not adequately document all eligibility
    determinations. OIG estimated that New York made more than 4.2 million payments totaling
    $230.4 million (Federal share) on behalf of ineligible beneficiaries and did not adequately
    document eligibility determinations for an additional 15.3 million payments totaling
    $2.8 billion (Federal share). OIG estimated that California made 4.7 million payments
    totaling $133 million (Federal share) on behalf of ineligible beneficiaries and did not
    adequately document eligibility determinations for an additional 2.5 million payments
    totaling $117 million (Federal share). OIG did not recommend recoveries because a
    disallowance may occur only if   the errors are detected through a State's Medicaid Eligibility
    Quality Control program. However, OIG recommended that New York and California
    review these report results to help ensure compliance with Federal and State Medicaid
    eligibility requirements. (A-02-05-01 028; A-09-06-00028; A-04-06-00020)

. Medicaid Disproportionate Share Hospital Payments. The Social Security Act requires that
    States make Medicaid disproportionate share hospital (DSH) payments to hospitals that serve
    disproportionately large numbers oflow-income patients. The Omnibus Budget
    Reconciliation Act of1993 (OBRA) limits these payments to a hospital's uncompensated
    care costs, which are the annual costs incurred to provide services to Medicaid and uninsured
    patients less payments received for those patients. OIG found that two States, New
    Hampshire and New Jersey, claimed a total of$45.3 million in unallowable Federal
    payments. Of        the $194.1 million that New Hampshire claimed in DSH payments for FY
    2004, $70.6 milion ($35.3 milion Federal share) was unallowable. OIG review ofDSH
    payments to two New Jersey hospitals also identified unallowable payments. DSH payments
    to one hospital from July 1995 through June 2001 exceeded the hospital-specific limits by
    $20 milion ($10 million Federal share) because a consultant used by the State erroneously
    included costs that      were not DSH eligible in its calculations, and the State claimed some
    duplicate DSH expenditures. DSH payments to the other hospital exceeded the hospital-
    specific limits by $2.2 milion ($1.1 million Federal share) from November 1996 through
    June 2001 because the consultant improperly included costs applicable to patients with
    private insurance coverage. (A-01-05-00001; A-02-04-01024; A-02-05-01 007)

· Medicaid Community Mental Health Center Provider Services in Indiana. OIG estimated
   that Indiana overpaid community mental health center providers at least $33.4 milion
   ($21.3 million Federal share) in reimbursement for Medicaid Rehabilitation Option (MRO)
   services provided during FY 2003. Under the MRO services program, clinical mental health
   serVices are provided tò individuals, families, or groups living in the community who need
   aid intermittently for emotional disturbances or mental illness. OIG recommended that
   Indiana refund the Federal share of the overpayment and strengthen its internal controls over
   the monitoring ofMRO services. (A-05-05-00057)

. Medicaid Reimbursement Rate for School-Based Health Services in Maryland. OIG found
    that Maryland had not complied with reimbursement provisions specified in its CMS-
    approved State Medicaid plan for school-based health services resulting in overpayments
    totaling $65.5 milion ($32.8 million Federal share) between State FYs 2002 and 2004.
    Medicaid covers the costs of school-based health services, such as physical therapy, speech
    pathology/therapy services, and psychological counseling that are provided to children under

Deficit Reduction Act of 2005 Report to Congress for FY 2007                                          7
     the Individuals with Disabilities Education Act. OIG recommended that the State refund the
     Federal share of unallowable costs, determine the unallowable costs for State FY 2005, make
     the appropriate refund, and continue to work with CMS to develop more accurate school-
     based health service rates. (A-03-05-00206)

· Use of     Health Information Technology in State Medicaid Programs. OIG found that 12 State
     Medicaid agencies have implemented a total of 16 health information technology (HIT)
     initiatives for Medicaid beneficiaries and participating providers, including claims-based
     electronic health records initiatives, electronic prescribing initiatives, remote disease-
     monitoring initiatives, and personal health records initiatives. OIG also found that 25 State
     Medicaid agencies are currently involved in planning and developing statewide health
     information exchange (HIE) networks. Lastly, OIG found that 13 State Medicaid agencies
     are incorporating the Medicaid Information Technology Architecture (MIT A) into their HIT
     and HIE planning. The MIT A is a framework developed by CMS to help States modernize
     their Medicaid information systems.

     In recent years, both the President and the Secretary ofHHS have promoted the goal of
     developing the HIT and the HIE initiatives. OIG recommended that CMS continue to
     support the goals of the MIT A to help facilitate future State Medicaid HIT and HIE
     initiatives, assist State Medicaid agencies with developing privacy and security policies
     regarding the use of             Medicaid health care information in HIT and HIE initiatives, and
     continue to work with the Office of            the National Coordinator for HIT to ensure that State
     Medicaid initiatives are consistent with national goals. CMS concurred with all OIG
     recommendations. (OEI-02-06-00270)

. Preadmission Screening and Resident Review for Younger Nursing Facility Residents With
     Serious Mental Illness and Mental Retardation. In two separate reviews, OIG examined the
     extent to which Preadmission Screening and Resident Review (P ASRR) requirements were
     addressed for Medicaid facility residents aged 22 to 64 with (1) serious mental illness and (2)
     mental retardation. All individuals who apply to or reside in Medicaid nursing facilities are
     required to receive a Level I P ASRR screen to identify suspected serious mental illness or
     mental retardation. Those identified must receive a Level II P ASRR to confirm their mental
     ilness or retardation, to determine whether they require nursing facility services, and to
     determine whether they require specialized services.

     With regard to residents with serious mental ilness, OIG found that almost all sampled
     residents had Level I screens that met all Federal requirements. Two-thirds had evidence of
     Level II PASRRs, but only 5 percent of            the Level II PASRRs met all Federal requirements.
     For those residents who received Level II P ASRRs, 85 percent received mental health service
     recommendations, and 33 percent had all the recommended services in their nursing facility
     care plans. Only two of five selected States' Level II P ASRR evaluation forms prompted
     evaluators to consider community-based placements, and, although all selected States
     monitored aspects of              the PASRR process, CMS provided only limited oversight. With
     regard to residents with mental retardation, OIG found that, while Level I screens were
     present in 88        percent of cases, one-fourth ofthese were completed late. Fifty-two percent of
     selected files contained neither a Level II evaluation nor a Level II determination. Twenty-

Deficit Reduction Act of 2005 Report to Congress for FY 2007                                                8
    two percent of sampled Level II evaluations did not contain evidence that the evaluator
    assessed whether the individual's total needs could be met in a community setting. CMS and
    the survey and certification agencies conducted only limited oversight. OIG recommended
    in both reviews that CMS hold State Medicaid agencies accountable for ensuring compliance
    with Federal requirements, hold States accountable for considering community placements
    during the Level II P ASRR process, and revise survey and certification requirements to
    ensure systematic oversight of the P ASRR. CMS agreed with all our recommendations.
    (OEI-05-05-00220; OEl-07-05-00230)

· States' Requirements for Medicaid-Funded Personal Care Service Attendants. OIG found in
    its review of all 50 States and the District of Columbia that States have established multiple
    sets of attendant requirements that often vary among programs and by delivery models within
    programs, resulting in 300 sets of attendant requirements nationwide. The "Medicaid State
    Manual" requires States to develop qualifications for attendants who provide care to
    Medicaid beneficiaries; it does not list specific qualifications but offers examples of
    requirements that States may establish to ensure that attendants provide high quality personal
    care.

    Because States had established different requirements for varous programs and/or delivery
    models, attendants may need to meet different requirements depending on the programs and
    delivery models through which they are serving beneficiaries. Only seven States applied
    uniform requirements to all the programs within them, and there were five programs
    nationwide using the consumer-directed delivery model that had no requirements. Those
    States that defined requirements did so differently and used them in different combinations.
    We concluded that most States were monitoring compliance with these attendant
    requirements on two levels. First, States delegated responsibility for ensuring that attendants
    met requirements to another entity (e.g., home health or personal care service agency,
    beneficiary, case manager). Second, States retained direct responsibility by ensuring that the
    entities with primary responsibility fulfilled their oversight duties. This report did not
    include recommendations. (OEI-07-05-00250)

· Suspected Medicaid Fraud Referrals. OIG found that MFCUs reported receiving a total of
    13,733 suspected fraud referrals over the 3-year period from July 2002 through June 2005, of
    which 29 percent came from State Medicaid agencies. Eighty-four percent ofMFCUs that
    provided information reported receiving less than half of all suspected fraud referrals from
    their respective State Medicaid agencies. MFCU-accepted referrals are matters that each
    MFCU retains for further investigation. Overall, MFCU-accepted referrals from State
    Medicaid agencies increased in number but their percentage of total referrals remained
    constant over the 3-year period reviewed. Within individual States these trends varied
    widely. Fifty-nine percent ofMFCUs reported accepting fewer referrals from their
    respective State Medicaid agencies in the last year of our review compared to the average
    number of referrals over all 3 years. One State Medicaid agency contributed to 67 percent of
    the increase in the number ofMFCU-accepted referrals over the 3-year study period. OIG
    recommended that CMS establish fraud referral performance standards for State Medicaid
    agencies. CMS concurred. (OEI-07-04-00181)



Deficit Reduction Act of 2005 Report to Congress for FY 2007                                      9
· Deficit Reduction Act of 2005: Impact on the Medicaid Federal Upper Limit Program.
      Pursuant to the DRA and effective January 2007, Medicaid Federal upper limits are to be
      based on 250 percent of AMP rather than 150 percent of the lowest price published in the
      national compendia. This report, which assessed the expected impact of      this new provision,
      found that Federal upper limit amounts are likely to decrease substantially under the new
      calculation method. Under the previous calculation method, Federal upper limit amounts
      were more than double pharmacy acquisition costs for 23 of 25 selected high-expenditure
      Medicaid drugs in the second quarter of 2006. However, if the new calculation had been in
      effect during that time period, pharmacies on average would have been able to purchase only
      6 of   the 25 selected high-expenditure drugs for less than the new Federal upper limit
      amounts. Furthermore, the AMP used to set a new Federal upper limit amount may be
      substantially lower than other AMPs associated with a drug.

      OIG recommended that CMS take steps to identify when a new Federal upper limit amount
      may not be representative of a drug's acquisition cost to pharmaCies and, in those situations,
      determine the proper course of action. CMS did not agree with our findings. In July 2007,
      CMS published final rule 72 FR 39142-39245 (July 17,2007), which implements section
      6001 of the DRA and incorporates provisions that ensure that a drug is for sale nationally.4
      (OEI-03-06-00400)

Investigations and Legal Services

In addition to conducting audits and evaluations, OIG investigates allegations of criminal and
civil wrongdoing in conjunction with DOJ, conducts administrative enforcement and litigation,
and provides technical support. As a result of                             these activities, OIG reported over $2 billion in
monetary receivables to both Federal and non-Federal governent entities in FY 2007. Of                                   that
amount, over $391 milion was specifically identified as restitutions or recoveries to be returned
to Federal and State Medicaid programs.

OIG's enforcement work and industry guidance are often designed to have broad impact on
Federal health care programs. In large part, OIG's industry outreach and enforcement efforts
affect other health care programs, not just Medicaid. Table 3 presents a summary ofOIG's
investigative, enforcement, and industry outreach activities during FY 2007 related to Medicaid.




4 In December 2007, the US District Court for the District of
                                                                Columbia preliminarily enjoined the implementation of   this
regulation,

Deficit Reduction Act of 2005 Report to Congress for FY 2007                                                                   10
         Table 3: OIG's Medicaid-Related Investigations and Legal Services in FY 2007

                                                                                               IIIIIIJli'
                        Enforcement
                           Medicaid Cases Worked                                                     1201
                           Joint Investigations Worked With State MFCUs                                724
                           Total Medicaid Cases Opened                                                 490
                           Criminal Convictions                                                        145
                           Civil Actions                                                               90
                           Program Exclusions - Imposed                                             3,308
                           Program Exclusions - Appeal Proceedings                                     90
                           Civil Monetary Penalty Actions                                              20
                           Emergency Medical Treatment and Labor                                          9
                             Act -"Patient Dumping"
                           CIAs- New                                                                    76
                              CIAs- Monitored6                                                         469
                        Outreach
                           Advisory Opinions                                                             18

Criminal and Civil Enforcement

One of    the most common types of fraud perpetrated against Medicaid and other Federal health
care programs involves filing false claims for reimbursement. The filing of false claims may be
pursued under Federal and State criminal statutes and, in appropriate cases, under the civil FCA.

The successful resolution of such civil FCA matters often involves the combined investigative
efforts and resources ofOIG, State MFCUs, and a variety of other law enforcement agencies.
Many providers elect to settle their cases prior to litigation. As part of their settlements,
providers often agree to enter into integrty agreements with OIG to avoid exclusions and to be
permitted to continue participating in Medicare, Medicaid, and other Federal health care
programs. Such agreements are monitored by OIG and require providers to enhance existing
compliance programs or establish new ones. Providers that settle these cases gen.erally deny that
they were liable or that they committed the alleged conduct.

In FY 2007, OIG opened 490 Medicaid-related cases for investigation of criminal or civil
wrongdoing and participated in 145 successful criminal convictions and 90 civil actions.
In addition, the Governent's enforcement efforts, including FCA cases, resulted in over
$1.4 bilion in investigative receivables related to Medicaid and other Federal health care
programs. Some successful enforcement actions are described below.




5 Matters listed here are not necessarily Medicaid specific. Many also involve fraud against other health care programs,
6 This number includes 14 quality-of-care CIAs representing more than 1,250 facilities funded primarily by Medicaid.

Deficit Reduction Act of 2005 Report to Congress for FY 2007                                                               i 1
Criminal Enforcement

    . Ohio. Jorge Martinez, a pain management physician convicted in a jury trial, was
          sentenced to life in prison and ordered to pay over $ i 4.3 millon in restitution, including
          over $1.6 million to Medicaid, for health care fraud resulting in death. Martinez was
          additionally sentenced to 20 years in jail for ilegal drug distribution, mail fraud, wire
          fraud, and health care fraud. The investigation revealed that Martinez conducted
          unnecessary and painful procedures on patients as a pretext for writing prescriptions for
          narcotic drugs. The physician then submitted claims to health care benefit programs,
          falsely indicating that he performed multiple complex procedures, such as nerve block or
          epidural injections. Many of the patients endured painful treatments because they were
          addicted to drugs, while other patients, who initially had legitimate injuries, fell victim to
          the physician's scheme and became addicted. Two of       his patients died of drug overdoses
          in 2001. Martinez is subject to supervised release and deportation ifhis life sentence is
          overtrned.

    · New York. Philip Fran, a dentist, was sentenced to 18 months in jail and ordered to
                                              being found guilty of defrauding the Medicaid
          forfeit $5 milion in assets as a result of

         program. Frank had been excluded from participating in the Medicaid program in 1995.
         However, he devised a scheme to maintain his practice which was comprised of
         95-percent Medicaid patients. To continue treating his Medicaid patients, Frank hired
         junior dentists with valid Medicaid provider numbers to perform basic procedures and
         paid them on a per diem basis. The excluded dentist provided the more complex
         procedures and billed Medicaid for all the services performed in the practice under the
         provider numbers of the junior dentists. In an attempt to cover up his scheme, Frank
         created management companies enabling him to deposit the Medicaid funds received in
         the names of the junior dentists.

    · Virginia. Rebecca Conyer, the owner of a home           health agency, and Donna Bates, her
         offce manager, were sentenced in Virginia for defrauding the Medicaid program.
         Conyer was sentenced to 30 months' incarceration and ordered to pay $923,000 in
         restitution. Bates received a 24-month prison sentence and was held responsible for
         paying $713,000, a portion of   the total restitution amount. The investigation revealed
         that personal care services billed to the Medicaid program were not performed at all,
         were not performed according to Medicaid standards, or were performed by personal care
         aides who were not adequately trained.

    · Ohio. Kevin Dennis, the former owner of a home health company, was sentenced to
        13 years incarceration and ordered to pay $564,000 in restitution for health care fraud,
         money laundering, and drug and weapons charges. The investigation revealed that
         Dennis solicited a population of an immigrant community to provide unnecessary
         medical services and billed Medicaid for those services. To facilitate the fraud, doctors
         signed plans of care to indicate that patients were in need of skilled nursing and home
         health aid services. In reality, patients had not been seen by the doctors. In addition,
         reimbursements from claims submitted to Medicaid were diverted to support Dennis's
         drug habit and to fund personal business ventures.

Deficit Reduction Act of 2005 Report to Congress for FY 2007                                          12
Civil Enforcement

    · Virginia. As part of a global criminal, civil, and administrative settlement agreement, the
        Purdue Frederick Company, Inc., and Purdue Pharma L.P. (collectively, the Purdue
        Companies), and three top executives agreed to pay almost $635 million to resolve a
        variety of       Federal, State, and private claims for fraudulently marketing OxyContin, a
        controlled-release formulation of Oxycodone, a powerful pain medication. The
        investigation revealed that from December 1995 through June 2001, Purdue Frederick
        effectively undertook a fraudulent and deceptive marketing campaign aimed at
        convincing doctors nationwide that OxyContin, because of its time-release formula, was
        less prone to abuse and that it was less likely to cause addiction or to produce other
        narcotic side effects than competing immediate release opioids. Purdue Frederick, along
        with its former president, Michael Friedman; Chief          Legal Officer, Howard Udell; and
        former Chief          Medical Officer, Paul Goldenheim, were sentenced for criminal violations
        of   the Federal Food, Drug, and Cosmetic Act for the misbranding of     the drug
        OxyContin.

        Each executive was sentenced to 3 years of probation, ordered to perform 400 hours of
        community service in a drug abuse or drug treatment program, and ordered to pay a
        $5,000 fine. Purdue Frederick was sentenced to 5 years of probation. Pursuant to their
        plea agreements, the executives will pay a total of $34.5 million in penalties. The Purdue
        Companies wil pay a total of almost $600 million in settlement and restitution costs and
        pay a maximum statutory fine of           $500,000. Of the total global settlement, HHS received
        over $95 million in Medicaid restitution (Federal and State shares) and over $3 million in
        the recovery of          improperly calculated Medicaid rebates involving OxyContin (Federal
        and State shares). Purdue Frederick wil be subject to a 25-year exclusion; Purdue
        Pharma L.P. agreed to enter a 5-year CIA with OIG.

    · District of Columbia. Maximus, Inc., a revenue maximization consultant, entered into a
        $42.7 million settlement agreement with the United States to resolve the company's
        liability under the FCA. Maximus allegedly filed false claims for Medicaid-funded
        targeted case management services. Such services assist foster children in obtaining
        needed medical, social, educational, and other services. Maximus submitted
        26,683 claims for Medicaid reimbursement that were not supported by documentation.
        The Federal Government contended that these services were never rendered. As par of
        the global resolution of the case, Maximus also entered into a 5-year CIA with OIG, as
        well as a 24-month deferred prosecution agreement with the U.S. Attorney's Office. In a
        novel provision, the CIA requires that OIG's OAS perform the claims and contract
        reviews that are ordinarily performed by an Independent Review Organization.

    · Maryland. Pediatrix Medical Group, Inc., agreed to pay the Governent $25 milion,
        including approximately $10.8 million to Medicaid, and enter into a 5-year CIA to
        resolve its liability under the FCA for improperly biling Medicaid, TRICARE, and the
        Federal Employees Health Benefits Program for neonatal services provided by its
        doctors. Through its network of affliated physician groups, Pediatrix provides neonatal
        services at varous hospital neonatal intensive care units in 32 States and Puerto Rico.

Deficit Reduction Act of 2005 Report to Congress for FY 2007                                          13
        Pediatrix allegedly used improper billing codes for neonatal services provided at several
        of these units. The Governent alleged that from January 1996 to December 1999,
        Pediatrix billed critical care services for infants when, in fact, many of the infants were
        not critically il. The settlement also resolved a Colorado case being investigated for the
        same misconduct.

    · Idaho. Alan D. Kohal, Kohal Pharmacy, Inc., and Kohal Pharacy and Medical Supply
        (collectively, "Kohal"), agreed to pay $214,000 to resolve their false claims act liability.
        The settlement resolved allegations that Kohal biled Medicaid for more than its usual
        and customary charge to the general public, failed to credit Medicaid for prescriptions
        returned unused, billed Medicaid for prior authorizations before prescriptions were
        eligible to be refilled, and biled Medicaid for doses of prescription drugs not distributed
        to beneficiaries. The State ofIdaho was also a party to the settlement. Kohal also agreed
        to enter into a comprehensive 5-year CIA. Alan D. Kohal and any entity in which he has
        an ownership interest will be bound by the terms of   the CIA during the five reporting
        periods.

Administrative Sanctions


Program Exclusions

Through the legal authorities contained in sections 1128 and 1156 of the Social Security Act,
OIG established a program to exclude individuals and entities from participation in Medicaid,
Medicare, and other Federal health care programs. OIG maintains a list of all currently excluded
parties called the List of Excluded Individuals/Entities from Federal Health Care Programs. The
bases for exclusion include convictions for program-related fraud, patient abuse, State licensing
board actions, default on Health Education Assistance Loans, and violation of existing CIAs.
Many ofthese are acts committed against the Medicaid program or its beneficiaries.

During FY 2007, OIG excluded 3,308 individuals and entities from participating in Medicaid,
Medicare, and other health care programs. These exclusions can have the effect of reducing
potential fraud that may be committed by the excluded entities against similar Federal health care
programs. The following are examples of   program exclusions imposed in FY 2007.

    · Georgia. Martin Bradley, III, owner of a pharmaceutical wholesale distributing
        company, was excluded for a minimum period of 70 years based on his conviction related
       to a racketeering scheme involving prescription drugs that were unlawfully obtained and
       diverted from 1996 to 2003. He was sentenced to 20 years of     incarceration and ordered
       to pay over $27.8 million in restitution, including over $10.1 million in restitution to the
       Florida Medicaid program and over $2.7 milion to CMS.

    · Texas. Doris Blake, owner of a biling company, was excluded for a minimum period of
        50 years based on her conviction related to a Medicaid fraud scheme. She billed the
        Medicaid program from September 2001 to December 2003 for chemical dependency
        counseling services that were never rendered. She was sentenced to 50 years of
        incarceration and ordered to pay over $1 milion in restitution.

Deficit Reduction Act of2005 Report to Congress for FY 2007                                       14
    . Florida. Thomas Merrll, an osteopath, was excluded for a minimum period of 50 years
        based on his conviction for wire fraud, health care fraud resulting in death, and unlawful
         dispensing of numerous controlled substances. From about January 2000 to May 2004,
         the osteopath submitted claims for medical services and procedures that were not
        provided or medic"ally necessary. In addition, he wrote prescriptions for controlled
        substances outside the usual course of professional practice, resulting in patient deaths.
        He was sentenced to life in prison and ordered to pay approximately $115,000 in
        restitution to Blue Cross Blue Shield, Medicaid, TRICARE, and a private insurer.

Civil Monetary Penalties Under the Emergency Medical Treatment and Labor Act

The Emergency Medical Treatment and Labor Act (EMTALA) (42 U.S.C. § 1395dd) requires of
all hospitals that receive Federal funding through Medicaid and other Federal health care
programs that "if any individual. . . comes to a hospital and the hospital determines that the
individual has an emergency medical condition, the hospital must provide either (A) within the
staff and facilities available at the hospital, for such further medical examination and such
treatment as may be required to stabilize the medical condition, or (B) for transfer of the
individual to another medical facility." This statute is designed to ensure patient access to
appropriate emergency medical services regardless ofthe patient's health insurance coverage
status.

In FY 2007, OIG collected $265,000 in civil monetary penalties, representing collections from
nine hospitals and one physician under the EMT ALA. The following are examples of
settlements involving alleged violations of that statute.

. Wheaton Francžscan Healthcare St. Joseph, Incpk/aSt. Joseph Regional Medical Center
    (St. Joseph), Wisconsin. The center agreed to pay $40,000 to resolve its liability for civil
    monetary penalties under the EMT ALA. OIG alleged that St. Joseph failed to provide an
    appropriate medical screening examination and stabilizing treatment to a woman that
    presented to St. Joseph's emergency department (ED) complaining of                          severe upper quadrant
    abdominal, hip, and thigh pain, following a motor vehicle accident. The ED physician
    diagnosed the patient as having a right hip and thigh contusion and did not conduct any lab
    work, any x-rays, or a CT scan. The patient was given an anti-inflammatory and discharged.
    The patient protested leaving the ED and informed a nurse that she was in extreme pain and
    could not walk. Hospital staff                    told the patient to leave the hospital and threatened to call the
    police. The patient was then placed in a wheelchair and hospital security escorted to her
    relative's car. The patient presented to another hospital's ED, where an x-ray revealed that
    she had a dislocated right hip, and a CT scan of the hip revealed an acetabular fracture that
    prevented relocation of the hip without surgery.

. St. Mary's Medical Center, Indiana. The center agreed to pay $40;000 to resolve allegations
    that it engaged in patient dumping. A 46-year-old uninsured man came to the hospital's
    emergency department by ambulance and in an unresponsive state. The on-call
    neurosurgeon was at the hospital but did not treat the patient. Instead, he directed the
    emergency department physician to transfer the patient over 180 miles away. The


Deficit Reduction Act of 2005 Report to Congress for FY 2007                                                         15
    transfer was performed without stabilizing treatment, and the patient arrved at the second
    hospital "brain dead."

· Medical Center of Arlington (MCA), Texas. The center agreed to pay $30,000 to resolve its
   liability for civil monetary penalties under the EMTALA. OIG alleged that MCA violated
   the screening, stabilization, and transfer provisions of the patient dumping statute when a
   female in her 39th week of    pregnancy presented to MCA's labor and delivery department
   with contractions. After approximately 35 minutes of observation, an on-duty obstetrician
   ordered that the patient be discharged with instructions to go, by private automobile, to
   another hospital that was nearly 21 miles away. Based on clinical indicators upon the
   patient's arrval at the alternative hospital, the order by MCA was alleged to have created an
   umeasonable level of risk for the patient and her child.


Medicaid Fraud Control Units

In addition to conducting audits, evaluations and investigations and providing legal services,
OIG is responsible for oversight of                      Federal grants to State MFCUs. In FY 2007, OIG oversaw
the distribution of$169 milion to MFCUs in 49 States and the District of                      Columbia. Section
1902(a)(61) of           the Social Security Act, as amended by section 13625 of            the OBRA, required
OIG to develop performance standards for assessing MFCUs. The standards are to assess the
effectiveness and efficiency ofMFCUs and enable OIG to determine whether the MFCUs are
carrying out their duties and responsibilities in an effective manner and in accordance with
applicable laws. These standards were created in consultation with the MFCU community and
made effective on September 26, 1994. In FY 2007, OIG conducted 12 onsite reviews of
MFCUs.

During this same time period, OIG participated in 724 joint investigations with MFCUs and
opened 490 investigations into potential fraud involving the Medicaid program.


Outreach

In FY 2007, OIG undertook a diverse array of other activities to enhance its capacity to fight
fraud, waste, and abuse in Medicaid and develop the capacity of  its Federal and State partners in
conducting their Medicaid oversight and enforcement responsibilities. More specifically, OIG
conducted outreach activities such as hosting training conferences, participating in roundtable
discussions, and issuing advisory opinions. The following subsections describe OIG's FY 2007
outreach activities.




Deficit Reduction Act of2005 Report to Congress for FY 2007                                                       16
Advisory Opinions to Outside Parties

In accordance with section 205 of            the HIPAA, OIG, in consultation with DOJ, issues advisory
opinions to outside parties regarding the interpretation and applicability of certain statutes
relating to Federal health care programs. This authority allows OIG to provide case-specific
formal guidance regarding the application of          the anti-kickback statute and safe harbor provisions
and other OIG health care fraud and abuse authorities. In FY 2007, OIG issued 18 advisory
opinions related to Medicaid. The following are examples:

      . In Advisory Opinion 07-07, OIG considered a proposed cash donation to a retirement
           community by a charitable foundation affiliated with a health system. The retirement
           community provides a residential alternative to nursing homes for certain patients with
           special needs, including Medicaid beneficiaries. It is in a position to purchase federally
           financed paid items and services from the health system. The retirement community, the
           foundation, and the health system are all located in a medically undeserved area, and the
           three entities have overlapping directors. OIG determined that, although the proposed
           donation could implicate the anti-kickback statute, OIG would not impose sanctions for a
           combination of reasons. First, the donation would be unrestricted, made as part of    broad
           solicitation of funding, in proportion with contributions of other businesses in the area,
           and would constitute only a small percentage of the overall funding. Second, the
           donation would represent a one-time-only, fixed in-advance payment that would not be
           determined in a manner related to the volume or value of any business generated for the
           health system. Third, the retirement community would not be required to purchase items
           or services from the health system and would have an incentive to act as a prudent
           purchaser. Finally, the retirement community would implement certain safeguards
           against improper influence by the health care system.

     · In Advisory Opinion 07-12, OIG addressed a State's proposal to accept low- or no-cost
         bids for therapy services to be provided at State-run veterans' homes. The winning
         bidder would bill Medicare, Medicaid, or other third-party payers for services provided to
         insured patients and would bill the veterans for any cost-sharing amounts on behalf of
         these patients. Services to uninsured patients would be provided by the bidder at low or
           no cost. OIG determined that, although the proposals could implicate the anti-kickback
           statute, OIG would not impose sanctions based on several factors. The bid and the
           services to be provided would be part of a comprehensive regulatory scheme to care for
           the State's veterans, including some beneficiaries of the Medicaid program. The risk of
           overutilzation would be low, because the veterans would have an incentive to monitor
           utilization to control costs for which they would be responsible. In addition, there would
           be no adverse effect on competition because the bids would be pursuant to open,
           competitive invitations for bids in accordance with State law. Finally, the payment of
           cost-sharing amounts on behalf of residents who are Medicare or Medicaid beneficiaries
           would not be an improper inducement, because the State would thereby fulfill its
           statutory responsibility under State law to provide for the care and assistance of its
           veterans.




Deficit Reduction Act of 2005 Report to Congress for FY 2007                                            17
 Resource for Health Care Boards of                       Directors

In September 2007, OIG issued a resource guide for health care boards of directors. The guide is
the third in a series of documents co-sponsored by OIG and the American Health Lawyers
Association (AHLA). It seeks to assist directors of health care organizations in carrying out their
important oversight responsibilities in the current challenging health care environment. The
guide is designed to help directors ask knowledgeable and appropriate questions related to health
care quality requirements, measurement tools, and reporting requirements to establish, and
affrmatively demonstrate, that they have followed a reasonable quality oversight process. The
comments and perspectives shared in this educational resource are intended to assist boards in
exercising their duty of care as it relates to health care quality effectively, efficiently, and in a
manner that will help improve the nation's health care system. The guide is available on OIG's
Web site at
. http://oig.hhs. gov /fraud/ docs/ complianceguidance/CorporateResponsibilityF inal %209-4-07 .pdf.

Long-Term Care Ouality-of-Care Roundtable

On December 6,2007, OIG and the Health Care Compliance Association (HCCA) cosponsored
a Governent-industry roundtable called "Driving for Quality in Long-Term Care: A Board of
Directors Dashboard." One of   the goals of the roundtable was to specify items that could be
included on a "Quality of Care Dashboard" to be offered as a tool for boards of directors of long-
term care organizations. Over 35 long-term care professionals and 10 Governent
representatives attended the day-long event. The day consisted primarily of                          breakout discussion
groups designed around three perspectives on the oversight of quality of care: (1) organizational
commitment to quality, (2)  processes related to monitoring and improving quality, and
(3) outcome measures related to quality. In addition to these three substantive areas, a fourth
discussion group considered the benefIts of, and challenges to, developing a "Quality-of-Care
Dashboard." A report ofthe roundtable is available on the OIG Web site at
http://www .oig.hhs.gov/fraud/docs/ complianceguidance/RoundtableO 13007 .pdf.

OIG-Sponsored Medicaid Integrty Program Conferences

During FY 2007, OIG hosted six MIP conferences and set in motion working relationships
and future collaboration among OIG, Federal and State investigators, auditors, attorneys and
analysts from 26 States and the District of Columbia. Table 4 presents a list of the completed
conferences.

                                           Table 4: OIG 2007 MIP Conferences

              ,~ø
                                                                                             1.!lI~uil,lI'l'l
        New York                 Cape May, NJ                        March 5-7, 2007               90
        Boston                   Boston, MA                          May 9-10, 2007                90
        Dallas                   Dallas, TX                          June 5-7, 2007                100
        Chicago                  Indianapolis, IN                    July 10-11, 2007              120
        Atlanta                  Atlanta, GA                        August 2 i -22, 2007           110
        Baton Rouge              Baton Rouge, LA                     September 11-13, 2007         140

Deficit Reduction Act of 2005 Report to Congress for FY 2007                                                          18
Organizing and holding the MIP conferences has enabled OIG to involve each of     the
following agencies in a strategic planning process to collaboratively address Medicaid fraud
and abuse: CMS, Medicaid Integrty Group (CMS/MIG); District Attorneys' Offices; Federal
Bureau ofInvestigation; independent/nonprofit health insurance associations (e.g., National
Insurance Crime Bureau); MFCUs; CMS Program Safeguard Contractors; State agencies
(e.g., State Health and Human Services Departments; Division of                   Medical Assistance and
Human Services; Office of                   the State Comptroller); State Attorneys' General Offices; State
Medicaid Inspector General Offices; United States Attorneys' Offices; and OIG.

Holding multiple conferences across the country provided OIG the opportnity to address
program integrty issues and vulnerabilities that differ substantially across State lines and
within various regions. Each agenda was tailored to address specific needs unique to the
States residing within the hosting OIG region. Breakout sessions helped further achieve these
goals by focusing on specific areas with the highest risk for fraud.

Collaboration with CMS's Medicaid Integrtv Group

OIG's Medicaid integrty workgroup collaborates with CMS/MIG to coordinate and maximize
our respective activities to protect the integrty of    Medicaid. OIG has provided feedback and
technical assistance to CMS/MIG on a number of          products, including the statement of work, task
orders, and audit protocols for its Medicaid integrity contactors and letters to State Medicaid
Directors. OIG has also offered input into the currculum for CMS/MIG's training programs for
its newly hired staff and for State Medicaid program integrty staff. In addition, OIG and
CMS/MIG jointly developed procedures for CMS/MIG's Medicaid integrty contactors to refer
cases of      potential fraud to OIG. Finally, in followup to OIG's report on suspected fraud referrals
from State Medicaid programs to MFCUs, OIG is assisting CMS/MIG in implementing its
recommendation to develop fraud referral performance standards for State Medicaid agencies.

Seminars for Federal Agents and Attornevs

OIG cosponsored a conference with DOl's Office of                               Legal Education on Medicaid fraud
enforcement entitled "HHS Seminar on Strengthening OIG Response to Medicaid Fraud -
Developing Successful Investigations." The conference was designed for Federal agents and
attorneys with backgrounds in health care fraud and included 130 attendees and speakers from
OIG, GAO, MFCUs, State Attorneys General, U.S. Attorneys' Offices, and DOJ. We
specifically addressed the following subjects.

. Medicaid Vulnerabilities - The GAO Perspective
. Federal and State False Claims Acts
. Investigative Tools
. Drug Diversion
. Kickbacks
. Case Resolution
. Challenges to Collaboration: A Panel Discussion
. Nursing Home Fraud: Financial Fraud and Failure of Care

Deficit Reduction Act of 2005 Report to Congress for FY 2007                                                        19
. Trying a Fraud Case: Lessons Learned; Home Health Care Fraud
· Medical Transportation Fraud
· Hospital Medicaid Fraud
· Pharmaceutical Cases

Biannual MFCU Conference

To assist MFCUs in meeting their training needs, OIG conducted its biannual administrative
training conference in Chicago, Ilinois, from July 30 through August 2,2007. The purpose of
the conference was to provide guidance on issues and concerns that relate directly to the
oversight responsibilities ofOIG.

Congressional Hearing

On July 18,2007, Assistant Inspector General for Legal Affairs, Gregory Demske, testified
before the Senate Special Committee on Aging regarding OIG's work related to identifying and
preventing the abuse of the elderly. The testimony described the spectrum of activities,
enforcement actions, and initiatives that OIG has undertaken to identify cases of elder abuse,
ensure that those who would harm the elderly are prosecuted to the fullest extent of   the law
and/or prevented from continuing to participate in Federal health care programs, identify where
programs and systems involved in the oversight of quality of care may be strengthened, and
promote practices that will help prevent elder abuse.


SECTION 5: MEDICAID OVERSIGHT IN FY 2008 AND BEYOND

At the beginning of each fiscal year, OIG publishes its Work Plan to highlight the areas in which
it expects to conduct oversight work during the coming year. In addition to being a planning
document, the Work Plan serves as a method for focusing public attention on the areas deemed
important and identified as particularly vulnerable to fraud, waste, and abuse.

Throughout the course of each fiscal year, the OIG work undertaken may change for a number of
reasons. Some activities announced in the Work Plan may shift from higher to lower priority or
may be postponed until future years as a result of the changing focus of Congress, the Secretary,
OIG, or an intervening emergency or in response to trends identified in other related work. As
such, OIG's work planning is an evolving process that enables OIG to remain adaptable to the
changing priorities of its stakeholders.

Appendix A ofthis report lists OIG reports issued in FY 2007, and Appendix B identifies more
than 70 Medicaid Work Plan items that OIG anticipates undertaking during FY 2008. Although
most Work Plan items will be initiated in FY 2008, many wil not be completed within the fiscal
year. Some of   these reviews increase the scope and depth of  prior OIG work by conducting
follow-up activities and others expand into new and emerging areas of interest. OIG will also
continue its investigative and enforcement activities and its outreach and guidance to the health
care industry. Detailed summaries ofOIG's anticipated work activities for FY 2008 can be


Deficit Reduction Act of 2005 Report to Congress for FY 2007                                     20
found in the OIG Work Plan, which is located in the "Publications" section of             the OIG Web site
at http://www.oig.hhs.gov/publications.

In addition to the activities described in the FY 2008 Work Plan, we are planning other activities
to enhance Medicaid enforcement and fraud prevention. For example, we expect to continue
working with CMS., State MFCUs, and the National Association for Medicaid Program Integrity
to improve State Medicaid agencies' capacity to make proper referrals based on a shared
understanding of the elements of successful investigations. We plan to host seven MIP
conferences during FY 2008. These conferences will involve 24 States thus completing OIG's
national MIP outreach effort.

OIG is also in the process of                  revising and updating its compliance program guidance for nursing
facilities. OIG develops compliance program guidance in its effort to engage the private health
care industry in addressing and combating fraud and abuse. Over the past several years, OIG has
developed and issued compliance program guidance directed at various segments of                    the health
care industry, including nursing homes. Risk areas for the nursing home industry include the
submission of false claims, as well as quality of care concerns, kickbacks, and accurate reporting
of data to Medicare and Medicaid. Since OIG first published a compliance program guidance in
this area (65 FR 14289; March 16, 2000), the nursing home industry has experienced a number
of changes. Additionally, the subsequent years of enforcement and compliance activity in the
nursing home industry has allowed OIG to address more fully the various risk areas in nursing
home compliance. On January 24, 2008, OIG published a Solicitation ofInformation and
Recommendations for Revising the Compliance Program Guidance for Nursing Facilities (73
Fed. Reg., 16).

SECTION 6: CONCLUSION

In conclusion, OIG's varied and far-reaching activities help position the Federal Governent and
its partners to better monitor the integrty of funds appropriated to HHS to operate Medicaid and
more than 300 other programs. In so doing, OIG serves Congress, HHS, and the American
public by improving the solvency of Governent-sponsored health and human services
programs.




Deficit Reduction Act of2005 Report to Congress for FY 2007                                                  21
  APPENDIX A: OIG'S MEDICAID-RELATED AUDIT AND EVALUATION REPORTS
                            ISSUED IN FY 2007

This appendix contains selected report titles and reference numbers for OIG's Medicaid-related
audit and evaluation reports issued during FY 2007. The full text for the reports listed below is
available on the OIG Web site at http://www.oig.hhs.gov.

Medicaid Hospitals

Medicaid Hospital Outlier Payments in Virginia for State Fiscal Years 2001 Through 2003
(A-03-04-00212)

Review of         Medicaid Disproportionate Share Hospital Payments to University Behavioral
Healthcare Center, University of                     Medicine and Dentistry of   New Jersey: July 1, 1995, Through
June 30, 2001 (A-02-04-01024)

Review of  Medicaid Disproportionate Share Hospital Payments to Runnells Specialized
Hospital: November 1, 1996, Through June 30, 2001 (A-02-05-01007)

Review of Medicaid Reimbursement of Graduate Medical Education in Missouri
(A-07-04-03058)

Review of  New Hampshire's Medicaid Disproportionate Share Hospital Payments During
Federal Fiscal Year 2004 (A-01-05-00001)

Virginia Rebase Process Used To Calculate Medicaid Rates for State Fiscal Years 2001 Though
2003 (A-03-05-00205)

Medicaid Long-Term and Community Care

Contracting Practices for Tennessee Home- and Community-Based Services for Mentally
Retarded Persons (A-04-03-03025)

Preadmission Screening and Resident Review for Younger Nursing Facility Residents With
Mental Retardation (OEI-07-05-00230)

Preadmission Screening and Resident Review for Younger Nursing Facility Residents With
Serious Mental Ilness (OEI-05-05-00220)

Review of Additional Reimbursement for Distinct-Part Nursing Facilities of                      Public Hospitals in
California (A-09-05-00050)

States' Requirements for Medicaid-Funded Personal Care Service Attendants
(OEI -07 -05-00250)




Deficit Reduction Act of 2005 Report to Congress for FY 2007                                                      22
Tennessee Home- and Community-Based Mental Retardation Services for July 1,2002,
Through June 30, 2003 (A-04-03-03026)

Medicaid Mental Health Services

Review of Medicaid Community Mental Health Center Provider Services in Indiana
(A-05-05-00057)

Medicaid/State Children's Health Insurance Program

Fraud and Abuse Safeguards in Separate State Children's Health Insurance Programs
(OEI-06-04-00380)

Review of  Premium Payments for Iowa's Separate State Children's Health Insurance Program
for the Period July l, 2000, Through June 30,2002 (A-07-03-02011)

Review of State Children's Health Insurance Program Eligibility in California (A-09-06-00022)

Review of        State Children's Health Insurance Program Eligibility in Florida (A-04-06-00021)

Review of State Children's Health Insurance Program Eligibility in New York State
(A-02-06-01003)

Medicaid Prescription Drugs

Deficit Reduction Act of2005: Impact on the Medicaid Federal Upper Payment Limits
(OEI-03-06-00400)

Examining Fluctuations in Average Manufacturer Prices (OEI-03-06-00350)

Review ofMedicaid Outpatient Drug Expenditures in Iowa for the Period October 1,2002,
Though September 30,2004 (A-07-06-04062)

Review of        Medicaid Outpatient Drug Expenditures in Nebraska for the Period October 1, 1997,
Through September 30,2004 (A-07-05-04056)

States' Use of      New Drug Pricing Data in the Medicaid Program (OEI-03-06-00490)

Other Medicaid Services

Improper Payment for Medicaid Pediatric Dental Services (OEI-04-04-00210)

Medicaid Provider Enrollment Standards: Medical Equipment Providers (OEI-04-05-00180)

Review of Abortion-Related Laboratory Claims Billed as Family Planning Under the New York
State Medicaid Program (A-02-05-01009)

Deficit Reduction Act of2005 Report to Congress for FY 2007                                         23
Review of Medicaid Reimbursement Rate for School-Based Health Services in Maryland
(A-03-05-00206)

Review of Nevada's Medicaid School-Based Administrative Expenditures for Calendar Years
2003 and 2004 (A-09-05-00054)

Review of Pharmacy Claims Biled as Family Planning Under New Jersey's Medicaid Program
(A-02-05-01019)

Review of   Pharmacy Claims Billed as Family Planning Under the New York State Medicaid
Program (A-02-05-01018)

Review of   Retroactive School Health Claims - New York City Department of     Education
(A-02-03-01029)

Review of Retroactive School Health Claims - Rest of State (A-02-04-01 02 I)

Review of State Claims for the Costs of Family Planning Services Provided Through Medicaid
Managed Care Programs (A-03-06-00200)

Medicaid Administration

Arkansas Physician Supplemental Payment Program (A-06-06-00064)

Audit ofCalifornia's Section 1115 Medicaid Demonstration Project Extension for Los Angeles
County (A-09-04-00038)

Medicaid Payments for Skiled Professional Medical Personnel to Missouri School Districts
(A-07-06-03075)

Medicaid Enhanced Payments for Ilinois State-Employed Physicians for April 1, 2002, Through
June 30, 2004 (A-05-06-00042)

Review of Allegheny County's Medicaid Administrative Case Management Costs Claimed by
Pennsylvania Between January 2002 and June 2003 (A-03-05-00201)

Review of California's Controls Over Reporting of County Medicaid Administrative
Expenditures (A-09-05-00057)


Review of Medicaid Credit Balances at Baystate Franklin Medical Center for the Period Ending
June 30, 2006 (A-01-07-00002)

Review of Medicaid Credit Balances at Baystate Mary Lane Hospital for the Period Ending
June 30, 2006 (A-01-06-0001O)




Deficit Reduction Act of2005 Report to Congress for FY 2007                                  24
Review of        Medicaid Credit Balances at Baystate Medical Center for the Period Ending
June 30,2006 (A-01-07-00004)


Review of Medicaid Eligibility in California for the Period January 1 Through June 30, 2005
(A-09-06-00028)

Review of        Medicaid Eligibility in Florida (A-04-06-00020)

Review of        Medicaid Eligibility in New York State (A-02-05-01028)

Review ofthe Medicaid Program's Use of           Consultants on a Contingency Fee Basis
(A-04-05-00015)

Review of        Missouri Provider Tax (A-07-06-01029)

Review ofMontgomery County's Medicaid Administrative Health Services Costs Claimed by
Maryland Between October 2003 and September 2004 (A-03-05-00208)

Review of        Non-Risk Managed Care Contract Administration Fees in Utah (A-07-06-01020)

Review of Social Security Act Section 1915( c) Waiver Payments for Home and Community-
Based Services at Trinity Services, Inc., July 1, 2004, through June 30, 2005 (A-05-07-00056)

Suspected Medicaid Frau~ Referrals (OEI-07-04-00181)

Medicaid Information Systems Controls

Use of      Health Information Technology in State Medicaid Programs (OEI-02-06-00270)

Medicaid Hurricane Response

Medicaid Payments and Services Related to Hurrcanes Katrina and Rita
(OEI-05-07-00300, primary report, and OEI-05-06-00140, data compendium)




Deficit Reduction Act of 2005 Report to Congress for FY 2007                                    25
APPENDIX B: MEDICAID WORK INCLUDED IN OIG'S FY 2008 WORK PLAN

This appendix lists Medicaid-related audit and evaluation work included in OIG's FY 2008
Work Plan. Summaries of          the objectives of each project are provided in the work plan, located
in the "Publications" section of      the OIG Web site at http://www.oig.hhs.gov.

Medicaid Hospitals

Hospital Eligibility for Disproportionate Share Hospital Payments (OAS W -00-05-31084)

Hospital Outlier           Payments (OAS W-00-04-31069; OAS W-00-05-31                         069)

Medicaid Disproportionate Share Hospital Payment Distribution (OAS W-00-08-31302)

Provider Eligibility for Medicaid Reimbursement (OAS W-00-08-31301)

States' Use of          Disproportionate Share Hospital Payments (OAS W-00-08-31300)

Medicaid Long Term and Community Care

Assisted Living Facilities (OAS W -00-04-31076; OAS W -00-05-31076)

Biling for Medicaid Nursing Home Patients Transferred to Hospitals (OAS W-00-07-31201)

Community Residence Rehabilitation Services (OAS W-00-07-31 087)

Inappropriate Medicaid Payments for Personal Care Services During Periods of
Institutionalization (OEI07-06-00620)

Medicaid Adult Day Health Service Payments for Ineligible and Absent Beneficiaries
(OEI09-07-00500)

Medicaid Home Health Agency Claims (OAS W-00-08-31304)

Medicaid Payments for Medicare-Covered Home Health Services
(OEI 07-06-00640; OEI 07-06-00641; OAS W-00-07-31305)

Medicaid Payments for Personal Care Services (OAS W-00-05-31 035)

States' Use of         Civil Monetary Penalty Funds (OEI 00-00-00000; OAS W-00-08-31303)

Targeted Case Management (OAS W-00-05-31                                 082; OAS W-00-06-31   082)




Deficit Reduction Act of 2005 Report to Congress for FY 2007                                          26
Medicaid Mental Health Services

Early and Periodic Screening, Diagnosis, and Treatment of                 Mental Health in Medicaid Managed
Care Plans (OEIOO-OO-OOOOO)

Medicaid Supplemental Mental Health Payments to Prepaid Inpatient Health Plans
(OAS W-00-06-31 098; OAS A-07-06-04067)

Medicaid/State Children's Health Insurance Program

Assessing Medicaid Eligibility for Children Enrolled in Separate State Children's Insurance
Programs (OEI06-07-00310)

Medicaid Prescription Drugs

Additional Rebates of               Brand-Name Drugs (OAS W -00-08-31306; OAS A-06-08-00000)

Assessing the Accuracy of Drug Type Classification in the Medicaid Drug Rebate Initiative File
(OEIOO-OO-OOOOO)

Calculation of Average Manufacturer Prices (OAS W-00-07-31202)

Disputes Within the Medicaid Prescription Drug Rebate Program (OEIOO-OO-OOOOO)


Manufactures' Submission of                     Outliers Average Manufacturer Price (OEI03-07-00740)

Pharmacies' Ability To Purchase Drugs at the Average Manufacturer Price
(OAS W-00-07-31204; OEI 00-00-00000)

Post Implementation Review ofthe Federal Upper Limit Program (OEI 00-00-00000)

States' Accountability Over Medicaid Drug Rebate Programs (OAS W -00-07 -31205)

States' Medicaid Drug Claims (OAS W-00-07-31203)

States' Use of          the Average Manufacturer Price To Establish Medicaid Pharmacy Reimbursement
(OEIOO-OO-OOOOO)

Zero Dollar Unit Rebate Amounts (OAS W-00-07-31106)

Other Medicaid Services

Adult Rehabilitative Services (OAS W -00-03-31028)

Family Planning Services (OAS W-00-04-31                     078; OAS W-00-05-31078; OAS W-00-06-31078)



Deficit Reduction Act of2005 Report to Congress for FY 2007                                              27
Freestanding Inpatient Alcoholism and Substance Abuse Providers (OAS W -00-06-31107)

Improper Medicaid Payments for Laboratory Services for Dual-Eligible Beneficiaries
(OEI 04-07-00340)

Medicaid Laboratory                Tests (OAS W-00-07-31206)

Medicaid Payments for Transportation Services (OAS W-00-06-31121)

Medicaid Physical and Occupational Therapy Services: Appropriateness of          Payments
(OEIOO-OO-OOOOO)

Medicaid Safeguards Over Payments for Nonemergency Transportation Services
(OEI 06-07-00320).

Medicaid's Use of an All-Inclusive Rate for Reimbursing the Indian Health Service and Tribes
for Prescription Drugs (OEI 09-08-00160)

Medical Equipment (OAS W-00-08-31307)

Medical Services for Undocumented Aliens (OAS W -00-06-31108)

Outpatient Alcoholism and Substance Abuse Services (OAS W-00-07-31079)

Reimbursement Rates for Services Provided by Indian Health Service Facilities
(OAS W-00-07-31221)

Medicaid Administration

Additional Medicaid Payments to High-Volume Providers (OAS W -00-07 -31214)


Appropriateness of Level of Care Determinations for Home- and Community-Based Services
Waiver Recipients (OEI 00-00-00000)

Contingency Fee Payment Arrangements
(OAS W-00-04-31045; OAS W-00-05-31045; OAS W-00-06-31                     045)

External Quality Review Organizations' Compliance With Federal Requirements
(OEI01-06-00510)

Medicaid and State Children's Health Insurance Program Payment Error Rate Measurement
(OAS W-00-08-31314)

Medicaid Administrative Costs (OAS W-00-06-39044; OAS W-00-06-31123)




Deficit Reduction Act of2005 Report to Congress for FY 2007                                    28
 Medicaid Asset Transfers and Estate Recovery Provision for Nursing Home Care
 (OAS W-00-06-31113)

 Medicaid Claims at Enhanced Federal Financial Participation Rates (OAS W -00-08-31310)

Medicaid Eligibility in Multiple States (OAS W -00-06-31114)

Medicaid Enrollment of                    Working Disabled (OEIOO-OO-OOOOO)

Medicaid Managed Care Encounter Data: Reporting and Utilization (OEI 07-06-00540)

Medicaid Management Information System Costs (OAS W -00-08-31312)

Medicaid Payments for Services Provided Under Section 1115 Demonstration Projects
(OAS W-00-07-31208)

Medicaid Payments for Services Provided Under Section 1915(b) Managed Care/Freedom of
Choice Waivers (OAS W-00-08-31125)

Medicaid Payments for Services Provided                  Under Section 1915(c) Home- and Community-Based
Service Waivers (OAS W-00-06-39045; OAS W-00-06-31124)

Medicaid Payments Made for Ineligible Managed Care Members (OAS W-00-07-31212)

Medicaid Provider Tax Issues (OAS W-00-08-31 094)

Medicaid Statistical Information System Data Reporting (OEI04-07-00240)

Medicaid Upper Payment Limits (OAS W -00-08-31313)


Medicaid Waiver Safety                    Net Care Pools (OAS W-00-08-31308)

Medicare/Medicaid Credit Balances (OAS W -00-08-31311)

Physician Assistant Reimbursement (OAS W-00-07-31089)

Provider Enrollment Controls for Medicaid Home- and Community-Based Services Waiver
Providers (OEIOO-OO-OOOOO)

Sections 1915(b) and (c) Concurrent                 Waivers (OAS W-00-08-31309)

State and Federal Oversight of                 Home- and Community-Based Services (OEI02-08-00170)

State Medicaid Third Party Liability (OEI 00-00-00000; OAS W-00-07-31213)

Upper Payment Limits-Flow of                     Funds (OAS W-00-07-31207)


Deficit Reduction Act of 2005 Report to Congress for FY 2007                                          29
Information Systems Controls


Claims-Processing Controls To Prevent Duplicate Payments for Medicaid Services
(OAS W-00-08A1040)

Health Information Technology in Medicare and Medicaid-Security Issues
(OAS W-00-08-4102L)

Medicaid Management Information Systems-Business Associate Agreements
(OAS W-00-08-41 028)

Oversight of System Conversions, Redesigns, and Transitions of State Medicaid Management
Information Systems (OAS W-00-08-41   077)

State-Based Controls Over Medicaid Payments and Program Eligibility (OAS W-OO-08-40019)

Medicaid-Related Gulf Coast Hurricane Response

Duplicate Medicaid Payments to Providers (OAS W-00-06-31117)

Medicaid Payments for                 Evacuees (OAS W-00-07-31216)

Uncompensated Care Costs (OAS W-00-07-31219)




Deficit Reduction Act of 2005 Report to Congress for FY 2007                               30
APPENDIX C: ACRONYMS AND ABBREVIATIONS

The following is a list of acronyms and abbreviations used in this publication.

AMP               average manufacturer price

CIA              corporate integrty agreement

CMP              Civil monetary penalty

CMS              Centers for Medicare & Medicaid Services

CMS/MIG          CMS, Medicaid Integrty Group

DOJ              Department of Justice

DRA              Deficit Reduction Act of 2005

DSH              disproportionate share hospital

ED               emergency department

EMT ALA          Emergency Medical Treatment and Labor Act

FCA              False Claims Act

FR               Federal Register

FY               fiscal year

GAO              Governent Accountability Office

HCCA             Health Care Compliance Association

HCF AC           Health Care Fraud and Abuse Control Program

HHS              Department of    Health and Human Services

HIE              health information exchange

HIP AA           Health Insurance Portability and Accountability Act

HIT              health information technology

IG               Inspector General


Deficit Reduction Act of 2005 Report to Congress for FY 2007                      31
 IT               information technology

 MCA              Medical Center of Arlington

 MFCU             Medicaid Fraud Control Unit

 MlC              Medicaid Integrty Contractor

MIP               Medicaid Integrty Program

MITA              Medicaid Information Technology Architecture

MRO              Medicaid Rehabilitation Option

OAS              Office of Audit Services

OBRA             Omnibus Budget Reconciliation Act of 1993

OCIG             Office of Counsel to the Inspector General

OEI              Office of   Evaluation and Inspections

01               Office of Investigations

OIG              Office of Inspector General

OMP              Offce of    Management and Policy

P ASRR           Preadmission Screening and Resident Review

P.L.             Public Law

SCHIP            State Children's Health Insurance Program




Deficit Reduction Act of 2005 Report to Congress for FY 2007     32
